<html>
<title> - THE UNEMPLOYMENT PANDEMIC: ADDRESSING AMERICA'S JOBS CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








                       THE UNEMPLOYMENT PANDEMIC: 
                    ADDRESSING AMERICA'S JOBS CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2020

                               __________

                           Serial No. 116-98

                               __________

      Printed for the use of the Committee on Oversight and Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                 Available on: http://www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov 
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
41-891 PDF               WASHINGTON : 2020
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky,
Harley Rouda, California             Michael Cloud, Texas
Ro Khanna, California                Bob Gibbs, Ohio
Kweisi Mfume, Maryland               Clay Higgins, Louisiana
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Chip Roy, Texas
Peter Welch, Vermont                 Carol D. Miller, West Virginia
Jackie Speier, California            Mark E. Green, Tennessee
Robin L. Kelly, Illinois             Kelly Armstrong, North Dakota
Mark DeSaulnier, California          W. Gregory Steube, Florida
Brenda L. Lawrence, Michigan         Fred Keller, Pennsylvania
Stacey E. Plaskett, Virgin Islands
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

           David Hickton, Select Subcommittee Staff Director
                  Russ Anello, Chief Oversight Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green, Tennessee 





















                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 18, 2020....................................     1

                               Witnesses

William E. Spriggs, PhD, Chief Economist, AFL-CIO, Professor, 
  Department of Economics, Howard University
Oral Statement...................................................     5
Michele Evermore, Senior Researcher and Policy Analyst, National 
  Employment Law Project
Oral Statement...................................................     7
Rachel Greszler, Research Fellow in Economics, Budget and 
  Entitlements at the Heritage Foundation
Oral Statement...................................................     9
Jason Furman, PhD, Professor, Harvard Kennedy School of 
  Government and Department of Economics at Harvard University
Oral Statement...................................................    11

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  docs.house.gov.

  * Politico, ``GOP Memo Urges Anti-China Assault Over 
  CoronaVirus'', article; submitted by Rep. Raskin.

  * CNN Politics,``The Many Times Trump Has Praised China's 
  Handling of the Coronavirus Pandemic'', article; submitted by 
  Rep. Raskin.

  * The New York Times ``Bolton Book Says Trump's Offenses Exceed 
  Ukraine'', article; submitted by Rep. Raskin.

 
      THE UNEMPLOYMENT PANDEMIC: ADDRESSING AMERICA'S JOBS CRISIS

                              ----------                              


                        Thursday, June 18, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 12:07 p.m., 
via WebEx, Hon. James E. Clyburn (chairman of the subcommittee) 
presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Raskin, Kim, Scalise, Jordan, Luetkemeyer, 
Walorski, and Green.
    Mr. Clyburn. The committee will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    Today, the select subcommittee is holding our first 
official hearing which builds on the productive committee work 
briefings we have held over the last several weeks. Today's 
hearing will address the catastrophic levels of unemployment 
the American people are facing.
    Our Nation's job crisis is a direct result of a public 
health crisis. As the virus spread throughout our communities 
in January and February, we failed to control it, leading to an 
unprecedented outbreak that has killed more people in the 
United States than in any other nation on Earth.
    By March, only drastic measures could slow the spread, and 
states were forced to shut down, severely limiting economic 
activity. The result has been the worst unemployment in more 
than 80 years. More than 45 million Americans have lost their 
jobs in just a few months, jobs that they relied on for their 
incomes, their health insurance, and their sense of security.
    This jobs crisis has not hurt all Americans equally. The 
burden has fallen hardest on those who can least afford it, 
people earning the lowest wages and with the least wealth. This 
disproportionately includes women, African Americans, and other 
people of color. According to a Federal Reserve survey, nearly 
40 percent of those earning $40,000 a year or less experienced 
job loss in March and early April.
    Today, many states are trying to reopen and put people back 
to work. But without a nationwide plan to stop the virus, 
nearly half of the states are now facing climbing rates of 
infections. Some cities, like Houston, Texas, are considering 
closing businesses again to protect their residents. In other 
areas that have reopened, economic activity is still far below 
normal, as many people remain rightly concerned about the 
virus.
    So, the jobs crisis is far from over. I was pleased to see 
an uptick in jobs in May, but we are still facing an 
unemployment rate worse than anything this country has faced 
since the Great Depression.
    Just last week, 1.5 million Americans applied for 
unemployment benefits for the first time. One-third of the 
jobless are still waiting to receive the unemployment benefits 
for which they applied.
    If there is one piece of positive news today, it is that 
Congress acted and it worked. We came together on a bipartisan 
basis to provide enhanced unemployment benefits in the CARES 
Act in an effort to stave off an even worse economic decline.
    But with those benefits set to expire next month and 
millions still out of work, Congress once again must act to 
extend these benefits. These $600 a week are standing between 
many American families and financial ruin. And let's be clear: 
If millions of Americans cannot afford to buy groceries or pay 
their mortgages, it will only cause a humanitarian disaster, 
but it also risks a broader economic collapse.
    In the long term, we can only resolve the unemployment 
crisis if we first address the public health crisis with a 
strong national plan for testing, tracing, isolation, and 
treatment. Only then will businesses and communities be able to 
reopen in a safe and sustained way.
    As the Federal Reserve reported last week, prospects for 
the unemployed, and I quote here, will largely depend on the 
course of the COVID-19 outbreak and on actions taken to halt 
its spread, end of quote. I couldn't agree more.
    Now, some have advanced a different view. The White House 
has asserted that the economy is at a turning point and is now 
in the recovery stage. Unfortunately, the administration is 
refusing to release economic projections that every modern 
President, both Democrats and Republicans, has provided to 
Congress.
    Today, I wrote to the White House, the Treasury, and the 
Office of Management and Budget and asked of them to release 
this information so we can work together on bipartisan 
solutions to help struggling Americans and prevent further 
economic damage.
    That brings us to today's hearing. The question we will ask 
our witnesses is how to meet the urgent needs of the 45 million 
unemployed while also rebuilding our economy to put these 
Americans back to work in the future. As we discuss this 
important issue, I implore my colleagues to keep in mind that 
these numbers and statistics represent Americans. They 
represent mothers and fathers supporting their children, 
workers in our local shops and restaurants, and our neighbors 
and friends. We need a plan that recognizes that the only way 
to protect their livelihoods is to protect their lives.
    I will now yield to my friend, the distinguished ranking 
member, Mr. Scalise, for his opening statement.
    Mr. Scalise. Thank you, Mr. Chairman.
    I want to start off by first expressing my condolences to 
two of our colleagues, Jim Sensenbrenner, who recently lost his 
wife Cheryl, and of course Andy Barr, very shocking loss of his 
wife Carol just a few days ago. We send our prayers and our 
love and support to them and their families. I also want to 
express my sympathies to Congresswoman Omar, who recently lost 
her father to COVID-19.
    So, Mr. Chairman, I know we are all joining together in 
lifting our colleagues up in prayer at difficult times like 
this. I know Congresswoman Waters has experienced a similar 
loss, and we continue to extend our prayers to her too.
    Mr. Chairman, I want to thank you for starting off with 
this hearing talking about the economic recovery and what we 
can do to continue to help people get back on their feet, get 
back to work. The American recovery has definitely entered a 
new phase.
    Back in March and April, the country made a decision to 
shelter in place and to stop this novel unknown virus from 
overwhelming our healthcare system and from costing needless 
more life being lost. By necessity, that period required the 
government to step in and provide relief, and provide relief we 
did.
    President Trump and a bipartisan majority in Congress, we 
all joined together to enact the CARES Act. As you mentioned, 
Mr. Chairman, that act, which included the Paycheck Protection 
Program, did just what we intended. It protected paychecks and 
it saved millions of jobs.
    The average PPP loan has an amount of less than $120,000, 
which means the majority of those loans went to small 
businesses so that they could keep paying their employees. As 
of June 12, there are more than 4.5 million PPP loans that have 
been approved, totaling more than $512 billion.
    Lenders of all shapes and sizes, including community banks, 
credit unions, and even large banks, have participated in this 
program, allowing the PPP to reach small business borrowers in 
every state and territory in our country and around these 
territories.
    More than 5,400 lenders have participated to date. In fact, 
the majority of those lenders have less than $1 billion in 
total assets, which means that most PPP lenders are local 
community banks that serve exactly the job creators we set out 
to help.
    The program reached far and wide, including underserved and 
historically disadvantaged areas. 424 different community 
development financial institutions and minority depository 
institutions participated in this program. Those firms issued 
almost $16 billion in PPP loans to their small business 
customers, many of which are in distressed areas.
    The PPP will continue to be an important resource moving 
forward. President Trump just signed legislation that we passed 
a few weeks ago, with overwhelming bipartisan support, to 
further strengthen the PPP's ability to save jobs and help 
small businesses through this difficult time.
    But America was not built to shelter in place. Americans do 
not hide in the face of crises. Americans want to get back to 
work. We want to care for our families. Students want to return 
to school. Our children want to play with their friends, and 
Americans demand the freedom to build a more prosperous country 
with greater upward mobility and, of course, equal opportunity 
for everybody who seeks it.
    America has quite naturally entered a new phase, a recovery 
phase, led by the energy, hopes, and determination of the 
American people. The American people helped create 2.5 million 
new jobs in May, which completely shocked the experts who 
predicted the opposite, that there would be 7.5 million job 
losses. So, that's a 10 million job swing to the positive for 
our economy, which shattered post-World War II records.
    Retail sales had the biggest one-month increase ever, 
rising 17.7 percent. We just got those numbers the other day. 
But make no mistake, we still have a great deal of work left to 
do. Over 40 million Americans, as the Chairman pointed out, 
filed for unemployment since the shutdown began.
    As we have discussed in previous briefings, the steep 
economic costs were not borne equally. Low-income Americans 
have suffered disproportionately. Forty percent of individuals 
earning less than $40,000 lost their jobs.
    A recent study by the National Bureau of Economic Research 
found that the number of open Black-owned businesses fell 41 
percent, Hispanic-owned businesses fell 32 percent, Asian-owned 
businesses fell 26 percent, and immigrant-owned businesses 
dropped by 36 percent.
    Reopening and recovery are critical to bettering the lives 
of our fellow Americans. Unemployment Insurance can provide 
temporary relief, but it cannot provide upward mobility that 
people want. The recovery must include a resurgence of Made in 
America manufacturing. We've learned that too much of our PPE 
came from China, and China lied to us, while hoarding PPE, and 
the world suffered from that with the further spread of the 
coronavirus.
    We can make ourselves better prepared while creating new 
jobs. This subcommittee could be helping by investigating 
China, trying to hold them accountable, and also finding out 
why they tried to corner the market on PPE, hoarding that vital 
equipment while lying to the rest of the world about the virus' 
dangers.
    The House Foreign Affairs Committee minority staff just 
released a 42-page report detailing China's lies and coverup. I 
would, Mr. Chairman, call on this subcommittee to hear from the 
Chinese Ambassador to start focusing on holding China 
accountable for what they did. Americans died because of the 
actions of the Chinese, but the members of the majority will 
not let us bring that accountability to this committee. I hope 
we can change that.
    Last week, my Republican colleagues and I raised the 
disturbing specter of the deadly decision by a handful of 
Governors to force COVID-positive patients back to nursing 
homes. This was in contradiction to CMS guidance. Those 
decisions led to thousands of unnecessary deaths across our 
country just in those five states.
    The Governor of New York recently resorted to name calling 
to try changing the subject, rather than actually being 
transparent and answering our questions. But, Mr. Chairman, no 
one has disputed the facts that we raised last week. In fact, 
the fact checkers have even called Governor Cuomo's excuse 
false.
    Once again, I would ask that this committee hear from those 
Governors who violated CMS guidelines, resulting in thousands 
of unnecessary nursing home deaths. We owe it to our Nation's 
seniors and their families who want to know why their parents 
and grandparents died who shouldn't have died. So, hopefully we 
can work to get to the bottom of that to find out what 
happened, hold people accountable, and prevent it from 
happening again.
    With that, Mr. Chairman, I look forward to hearing from our 
witnesses, and I yield back.
    Mr. Clyburn. I thank the gentleman.
    Now, I would like to introduce our witnesses. Our first 
witness today is chief economist for the AFL-CIO and Howard 
University economics professor, Professor William Spriggs.
    We are also joined today by Michele Evermore, senior policy 
advocate with the National Employment Law Project.
    We welcome Rachel Greszler, research fellow in economics, 
budget, and entitlements at the Heritage Foundation.
    And, finally, we will hear from Professor of the Practice 
of Economics Policy at Harvard University, Dr. Jason Furman.
    The witnesses will please unmute themselves so we can swear 
them in.
    Please raise your right hands. Do you swear or affirm that 
the testimony you're about to give is the truth, the whole 
truth, and nothing but the truth, so help you God?
    *Witnesses all testify ``I do.''
    Mr. Clyburn. Thank you.
    Let the record show that each one of the witnesses replied 
in the affirmative.
    Without objection, your written statements will be made 
part of the record.
    With that, Professor Spriggs, you are now recognized for 
your testimony.

  STATEMENT OF WILLIAM E. SPRIGGS, CHIEF ECONOMIST, AFL CIO, 
     PROFESSOR, DEPARTMENT OF ECONOMICS, HOWARD UNIVERSITY

    Mr. Spriggs. Thank you, Chairman James Clyburn and Ranking 
Member Steve Scalise, and also thank you to committee 
Chairwoman Maloney. I appreciate this invitation to give 
testimony before your committee today on the issue of our 
Nation's unemployment crisis.
    I'm happy to offer this testimony on behalf of the AFL-CIO, 
America's house of labor, representing the working people of 
the United States, and based on my expertise as a professor in 
Howard University's Department of Economics.
    My written testimony focused heavily on the $600 pandemic 
unemployment compensation benefit, and I will mention briefly 
the key points of that, but I also want to discuss other paths 
forward in my oral testimony.
    So, despite a slight improvement in May from the records 
reported in April of unemployment, we remain in the worst 
crisis the American labor market has faced on record. We faced 
this dilemma because the United States chose to lay off workers 
and use the unemployment service as its labor policy when 
companies were closed to practice social distancing.
    Most other industrialized nations instead chose to 
subsidize employers to keep workers on payroll while they shut 
down or reduced hours to comply with social distancing. This is 
going to be a test of what workers call just transition. A 
large segment of our workers are unemployed because of a policy 
choice from which we all benefit. Emerging studies show huge 
benefits from social distancing. It has limited 
hospitalizations and deaths.
    In an early attempt, beginning in March, to estimate the 
value of this, it's clear that we have saved $8 trillion 
conservatively. We have saved $8 trillion because of the 
projected lives that we have saved through social distancing.
    The clear benefits mean we have large latitude at 
implementing economic policies to mitigate the economic cost 
and still come out ahead as a society, and the room to properly 
account for and address the racial and gender inequalities that 
are becoming apparent, and that will slow the recovery if not 
correct it.
    I just want to highlight some parts of why the $600 is 
important and these distortions that are ahead. First, clearly 
from the macro policy perspective, as Chair Clyburn mentioned, 
the swift action by Congress to step in and fix or at least 
amend a broken unemployment insurance system helped to save the 
economy.
    In 2018, a typical labor market and the most recent data we 
have from the Bureau of Labor Statistics, and a normal labor 
market, only 7.8 percent of unemployed workers in leisure and 
hospitality industry, the industry most affected by this 
shutdown, received unemployment benefits. Had Congress not 
stepped in, we would have been in for a much worse situation.
    The pandemic unemployment assistance helps those workers 
with low wages that would not otherwise have received benefits. 
And looking at the difference between March when that policy 
was not in place and April when it was, the clear recovery of 
wages and lost personal income is huge and significant and very 
different than the experience we had in the 2009 recession.
    So, this benefit is necessary for maintaining aggregate 
demand and bolstering the economy. But it's also necessary on a 
set of other dimensions, key among them is maintaining equity. 
If you are one of the workers in the affected industries, the 
effect of unemployment rate, the unemployment rate to workers 
in those industries is 34 percent. If you are Black or Latino 
in those industries, it's 38 percent.
    So, it is fairer to interpret the experience that those 
workers are having as if we were watching a massive plant 
shutdown. In that event, we know that these workers have likely 
incurred permanent income loss. So, despite people being 
concerned that they are being overcompensated because the 
benefits may be higher than their replacement rate of wages 
lost, their wages lost need to be compared to their permanent 
income loss, not just to weekly income loss.
    I would also want to mention that because these workers 
face discrimination, because disparately they are Black and 
Latino and female in the labor market, they will have a harder 
time regaining employment.
    Further, we have to understand we do not want to reshift 
the balance away from American workers in this labor market. 
Employers are at a huge advantage. Workers are going to work 
with symptoms because they are so desperate to keep their jobs. 
A high share of workers, particularly women, particularly 
Hispanic women, are going to work despite saying that they have 
symptoms.
    So, workers are fearful. The idea that workers facing such 
a high unemployment rate do not want to return to work misses 
the risk they face in this job market. So, a fair modeling of 
the job search model would say that these workers are at high 
risk of not being able to find employment. And they return to 
work.
    I see the Chair leaning in. Let me conclude with this 
point. Going forward, we have two recessions. We have the 
pandemic response, but we also have a massive regular 
recession. We need a jobs program to address the young people 
who are disproportionately affected by this downturn. We need a 
jobs program because hiring now is at a record low level, much 
lower than during the Great Recession.
    We need, going forward, a jobs program to make sure that 
young people can be absorbed to do the things we know we need 
to contain the virus, to do tracing, to help isolation, and we 
need that now. We need that put in place now.
    Thank you, Chair.
    Mr. Clyburn. Thank you very much, Dr. Spriggs.
    The Chair now recognizes Ms. Evermore. Ms. Evermore, you 
are now recognized.

  STATEMENT OF MICHELE EVERMORE, SENIOR RESEARCHER AND POLICY 
            ANALYST, NATIONAL EMPLOYMENT LAW PROJECT

    Ms. Evermore. Good afternoon, Chairman Clyburn, Chairwoman 
Maloney, Ranking Member Scalise, and members of the committee. 
I'm grateful for the opportunity to testify today. I'm Michele 
Evermore, a senior researcher and policy analyst with the 
National Employment Law Project.
    The unemployment rate, higher in the past two months than 
the highest month of the Great Recession, would have been 
higher had it not been for the bold action that Congress has 
taken. However, the difficulty states had paying benefits 
exposed a system that has been at best neglected and at worst 
undermined.
    Now we must work together to fill in the gaps on 
unemployment insurance coverage, increase equity, and maintain 
benefits for those who are already eligible until the economy 
sufficiently improves. NELP applauds the bold action that 
Congress has taken, but more can and must be done.
    Unemployment insurance was built to distribute funds during 
an economic crisis. Created in the wake of the Great 
Depression, UI succeeds in achieving several key goals: Helping 
workers make ends meet, supporting people in their job search, 
keeping people connected to work, upholding living standards, 
and providing macroeconomic stability in a recession by 
maintaining worker buying power which supports businesses in 
the economy.
    It's also important to understand that our unemployment 
system is a patchwork of state systems, some of which have been 
intentionally modified to make it more difficult to get 
benefits. Since the last recession, states cut benefits by 
cutting benefit duration, creating confusing hurdles to access 
benefits, and narrowing qualification requirements.
    As a result, too few workers qualify for benefits, and 
those benefits are inadequate. Systems have also been 
calibrated to prevent overpayment at the expense of paying 
appropriate benefits, causing erroneous denials and false fraud 
accusations. That means slower benefits payments in a crisis 
like the one we've experienced.
    The Urban Institute found that during the Great Recession, 
Black workers were 13 percent less likely than White workers to 
receive benefits, and Latinx workers were four percent less 
likely.
    Structural racism inherent in occupational segregation in 
the U.S. plays a role in benefit access. But it's also clear 
there were hurdles in the UI system disproportionately 
affecting workers of color that have since been exacerbated by 
new cuts.
    The new CARES Act program helped to cover over some of 
those inequalities by establishing PUA for workers who would've 
been left behind by UI. Currently, about a third of benefits 
paid are going to PUA recipients. It made up for the decline in 
benefit levels by providing a life changing $600 PUC benefit, 
without which workers in communities would've been devastated.
    Don't take my word for it. Listen to Cindy from Ohio. She's 
a self-employed painter who waited 10 weeks to get benefits, 
and said: After finally receiving the $600 addition, my weekly 
backpay, which is less than my normal income, I can make sure 
my overdue mortgage can be brought close to current and that my 
taxes due in July will get paid, and that several other bills 
will get partially paid. That $600 is the security that I need 
while trying to move forward into an unknown work scape. Due to 
the public health crisis, my projected work is about 30 percent 
of what's normal for the last three months. I have to protect 
my parents' health first, but without the $600 benefit, we're 
being forced to choose between our health, the health of our 
loved ones, or our jobs when we did not choose this path. This 
is unacceptable and beyond cruel. I'm certain none of our 
public officials would choose to walk in our shoes, but I hope 
they can imagine being in them.
    As the CBO has made clear and as evidenced by the 
unemployment rate not only not increasing but dropping in May, 
the $600 kept the economy afloat and is not a disincentive to 
return to work. There's more to a job than a paycheck. In 
uncertain times, workers seek stability, and the reassurance of 
continued work is something many workers no longer have.
    I would also stress the importance of employer-sponsored 
health insurance during a pandemic. Employers who want to bring 
workers back part time should consider using work sharing so 
that workers can get partial benefits plus the $600 PUC.
    There's no comprehensive plan to address the unemployment 
crisis. There can't be until the disease is addressed. It's 
important to remember that workers cannot refuse suitable work 
and receive UI benefits, but unsafe work is not suitable work. 
The DOL needs to clarify that workers can refuse work that 
endangers them and their loved ones and establish standards 
employers must abide by as they reopen.
    This is both a workers' rights issue and a public health 
issue. If workers are forced to go back to unsafe conditions, 
employer negligence could result in workers getting sick and 
COVID spreading further throughout the community, prolonging 
the duration of the pandemic.
    Moving forward in the near term, states need more 
administrative funding. The $600 must remain in place until 
economic and health conditions improve. And we need an 
automatic way to scale benefit durations tied to the health of 
the economy.
    Long term, we must focus on the inherent inequalities baked 
into the system and set a Federal floor for benefits with 
meaningful access to adequate benefits. Without comprehensive 
UI reform, states face greater pressure to cut lower taxes and 
cut benefits than they did after the last recession.
    I look forward to working with you as we look to building a 
more just system in the future.
    Mr. Clyburn. Thank you. Thank you very much.
    Next, Ms. Greszler. You're now recognized.

  STATEMENT OF RACHEL GRESZLER, RESEARCH FELLOW IN ECONOMICS, 
        BUDGET AND ENTITLEMENTS, THE HERITAGE FOUNDATION

    Ms. Greszler. Good morning, and thank you for the 
opportunity to testify.
    I'd like to look at what's happened in the labor market and 
then discuss how Federal unemployment benefits are both helping 
and hurting the recovery, consider some proposals to alter or 
extend those benefits, and then last, to propose policies that 
will foster flexibility and employment opportunities for all 
Americans.
    America's economy was strong and the unemployment rate was 
at a half century low in February. But then came COVID-19, and 
the actions taken to mitigate the health pandemic led to a 
spike in unemployment unlike anything America has ever 
experienced.
    Over the past three months, about one in four workers has 
filed for unemployment. But even as the shutdown's lasted much 
longer than planned, the economy added 2.5 million jobs in May 
as state and local lawmakers eased economic restrictions, and 
Americans showed their willingness to return to work, 
restaurants, and stores. The employment figures also indicate 
that Americans are weaning off of Federal support, and society 
is ready for a gradual and safe reopening.
    The widely expanded unemployment benefits have both helped 
and hurt the recovery. Increased eligibility and larger-than-
ever unemployment benefits provided an important bridge to 
workers whose livelihoods were put on hold and to those whose 
jobs were lost for good.
    And because of the bonus $600 per week benefit that has 
resulted in increased incomes for most unemployed workers, 
JPMorgan actually projects that personal income will be 
slightly up in 2020. That will help boost state and local 
governments and common sales tax revenues. And with households 
having saved a third of their incomes in April, many Americans 
will be ready to spend.
    But the $600 bonus benefit has resulted in about 70 percent 
of unemployed workers receiving higher unemployment checks than 
they did regular paychecks. It never makes sense for 
unemployment benefits to exceed wages because this incentivizes 
unemployment. It's bad for small businesses that are having a 
hard time getting their workers to come back. It's bad for 
local economies that count on business activity. And it's 
ultimately bad for unemployed workers, because longer 
unemployment can increase the negative consequences of 
unemployment, such as a decline in physical and mental well-
being and lower incomes and opportunities in the future.
    This unemployment incentive can also have spillover 
consequences. For example, if childcare teachers don't go back 
to work, day cares can't open and many parents also can't go 
back to work. That's why it's not surprising that CBO's 
analysis of extending the $600 bonus benefit into 2021, as was 
proposed in the HEROES Act, it showed that it would hurt 
instead of help the economy in the long run by reducing 
employment and output in 2021.
    And the higher business cost that would come from it could 
contribute to increased prices and some business closures. 
Fraud and abuse have also been a significant problem in the 
expanded benefits. Washington state, for example, has an 
estimated $650 million in fraudulent claims of which it's 
fortunately been able to recovery about half.
    But despite the problems that the $600 bonus benefit 
created, trying to eliminate those work disincentives with one-
time return-to-work bonuses or continuing to pay workers the 
$600 benefit even after they go back to work would be 
inefficient and inequitable.
    It doesn't make sense to use limited resources to benefit 
individuals who actually have job options, and it would be 
unfair to the individuals who have been on the front lines day 
in and day out to have their coworkers come back and receive 
$600 more per week than they do.
    Instead, policymakers should end benefits that exceed 
workers' paychecks and instead provide temporary and targeted 
support to workers who do not have job opportunities. This 
could include a partial Federal match, perhaps 40 percent or 50 
percent on top of the state benefits. This would also ease the 
administrative burdens on the states and allow them to better 
meet their population's unique needs.
    While unemployment benefits can alleviate the symptoms of 
unemployment, the cure is a job, and that requires environments 
that offer flexibility instead of rigidity and that open doors 
to work opportunities for all Americans.
    Some helpful policies include providing liability 
protection for workers and employers who follow CDC guidance, 
encouraging instead of restricting freelance and gig economy 
work opportunities, ending wage restrictions and forced union 
dues, and repealing restrictions that limit flexibility in 
telework options.
    By coupling employment opportunities and flexibility with 
temporary and targeted unemployment supports, policymakers can 
help limit the economic damage and personal hardships caused by 
COVID-19 and set the stage for a solid recovery.
    Thank you.
    Mr. Clyburn. The Chair now recognizes Professor Furman.

    STATEMENT OF JASON FURMAN, PROFESSOR OF THE PRACTICE OF 
              ECONOMIC POLICY, HARVARD UNIVERSITY

    Mr. Furman. Thank you so much, Chairman Clyburn, Ranking 
Member Scalise, and members of the committee. My name is Jason 
Furman. I'm a professor of the Practice of Economic Policy at 
Harvard University. In my written testimony, I made eight 
points. I'm going to shorten and summarize the four most 
important.
    The first is that the United States is facing a major jobs 
crisis. The unemployment rate in May was the second highest 
it's ever been, second only to what it's been in April--ever 
been on record. That unemployment rate of 13.3 percent was 
actually realistically around 17.1 percent, when you correct 
for a classification error and when you take into account all 
the people who left the labor force.
    Even if all of the temporary laid off people were brought 
back to work immediately, a highly, highly optimistic scenario, 
the unemployment rate still would've been seven percent, a 
recessionary level.
    Moreover, the unemployment rate was higher for Black 
Americans, for Hispanic Americans, for those with lower levels 
of educational attainment. And for Black Americans, the overall 
employment rate was below 50 percent.
    My second point is that we have made some progress. In May, 
we saw record retail sales growth. We saw that helped support a 
decline in the unemployment rate and the creation of 2.5 
million net jobs. That progress could only have happened with 
the tremendous support that this Congress gave through the 
CARES Act.
    Disposable personal income would have fallen in the month 
of April but for expanded unemployment insurance and stimulus 
checks. With those, disposable personal income rose by a record 
amount, and that helped support the record consumption increase 
in May and the decline in unemployment.
    So, policy is working, but make no mistake, the economy is 
not doing this on its own. It is doing this with a tremendous, 
tremendous amount of support from public policy.
    That brings me to my third point, that prematurely ending 
the policies that did help foster the progress we saw in May 
would risk a terrible outcome for the economy. Ending any form 
of increased unemployment insurance after it expires by the end 
of July would not just hurt the tens of millions of people 
receiving those benefits; it would also reduce their purchasing 
power, hurting the small businesses that they buy from; hurting 
the workers at those businesses; hurting the banks whose 
mortgages they wouldn't pay, risking the increased probability 
of a financial crisis; and hurt the economy overall.
    An analysis that I did in my written testimony using a 
methodology and parameters very similar to those used in the 
past by the Council of Economic Advisers, the Congressional 
Budget Office, and the Federal Reserve Board staff model, I 
estimate that ending unemployment insurance would subtract 2.5 
percent from GDP in the second half of this year.
    To put that in context, that's about one year's worth of 
economic growth, more than one year's worth wiped away. And 
over the next year, it would cost 2 million jobs spread 
throughout the economy.
    My fourth point is that there is a much better way forward. 
Congress needs to continue to invest in the public health 
response, testing, tracing, isolation, and treatment, what it 
can in terms of treatment, vaccines, health system 
preparedness.
    In addition, assistance to states and localities is 
essential. Nutritional assistance is essential. A plan for 
reconstruction and rebuilding and job creation is essential, 
and extending expanded unemployment insurance benefits is also 
essential.
    My recommendation, Mr. Chairman, would be that all of these 
measures are tied to economic conditions, so that when the 
unemployment rate goes up, they automatically scale up; when 
the unemployment rate goes down, they automatically scale down. 
But what's most important is that there continues to be a very 
vigorous, ambitious response and that response lasts as long as 
it is needed.
    Thank you.
    Mr. Clyburn. Thank you. Thank you very much. And thanks to 
all of our witnesses.
    Now, we are going to go into a series of questions. Each 
member will have five minutes to make whatever statement he or 
she may want to make and ask a question. Be sure to note, a 
five-minute statement means no time left for questions. So, 
you've got five minutes. Right, Mr. Ranking Member?
    I'll now yield myself five minutes for questions.
    My first question goes to you, Professor Furman. The most 
recent jobs report shows that unemployment declined slightly 
last month from 14 percent to 13 percent. Now, the White House 
has suggested that this means that our economy has reached a, 
and I quote, turning point, and I'm quoting, is now in the 
recovery stage.
    Professor Furman, does the data indicate that unemployment 
will quickly snap back to pre-pandemic levels or should we 
expect continued economic pain?
    Mr. Furman. Thank you, Mr. Chairman. In May, the United 
States was in among the worst economic positions it's been in 
since the Great Depression. Moreover, the job growth in May and 
the job growth that I expect us to see again in June, was in 
some sense the easiest economic progress to make, because it's 
some businesses calling back their workers.
    Today we saw another 1.5 million people file for 
unemployment insurance. That's twice as large as the largest 
amount in any recession prior to the pandemic. So, economic 
conditions continue to be very difficult, and I know of no 
forecast that expects a rapid resumption of something like the 
3.5 percent unemployment we had before this.
    Mr. Clyburn. Thank you.
    Professor Spriggs, I'm particularly concerned about the 
disparate impact of the jobs crisis on communities of color and 
workers in low-wage jobs. The May jobs report shows 
unemployment for Black Americans is nearly 17 percent and 
rising. Unemployment for Hispanic women is even higher at 19 
percent. What's causing this disparity?
    Mr. Spriggs. Thank you, Chair Clyburn. So, a sign that we 
really weren't hitting a turning point is the fact that the 
Black unemployment rate went up. If we were actually in a 
turning point, the Black unemployment rate tends to fall even 
faster.
    The rise in the Black unemployment rate is a sign that the 
portion of the experience of workers today is also from a 
regular recession. During a regular recession, the Black 
unemployment rate, unfortunately, is very sticky because of 
labor market discrimination. As a result, that sign that the 
Black unemployment rate did not fall is a sign of things to 
come that are worse for Black workers.
    For Hispanic women, there are all sorts of things working 
against them. They are the hardest hit by the closings due to 
the pandemic. They face a great deal of labor market 
discrimination and reconnecting, and as seen by their 
willingness to work despite evidencing symptoms. It's clear 
that they are fearful of job loss.
    Added to that is the unprecedented jump in the lack of 
health insurance in the Hispanic community. This is the crises 
among Black and Brown workers. Black workers face a huge crisis 
because of the work-related COVID cases. In both the Black and 
Brown work forces, if you look at who's being hospitalized, you 
see it's working age Black and Brown people who are being 
hospitalized.
    Mr. Clyburn. Thank you.
    I now yield to the ranking member.
    Mr. Scalise. Thank you, Mr. Chairman.
    Again, I thank all of our witnesses for your testimony and 
for appearing before this committee.
    I know we've talked about the health crisis, and clearly 
that is the biggest concern that we've had from the very 
beginning, but we've also seen now with data that's out there 
that's very clear, that scientists have shown that the shut-in, 
people staying at home, people not going back to their doctor 
and not going and getting their regular checkups, or just the 
depression that's tied to people losing their job, or losing 
their business has led to a dramatic increase in non-COVID-
related deaths. A lot of medical studies have backed that up, 
have shown real numbers and in concerning data that shows that 
we need to reopen the economy. And that is the next step. 
That's where we are now. Each state is at some level of 
reopening, which is really important.
    But, Ms. Greszler, I know there's been--we've had some 
conversations within our committee and some witnesses have said 
the reason we shut down is because there's not a cure for the 
virus or a vaccine or it might come back in the fall, but 
others have pointed out accurately that the reason that we had 
the shut-in is because we want to make sure our hospitals 
weren't overwhelmed. Can you address what, in your position, 
what the reason for the shutdown--shut-in was?
    Ms. Greszler. Yes. Well, I think initially we didn't know 
much about this new virus and we didn't know what would be the 
most effective measures, and so we did want to protect lives, 
and we implemented, you know, very drastic, widespread 
shutdowns.
    But as we have learned more over time about who is at risk, 
you know, the elderly population in particular and children not 
being at risk, and as we have learned what are the safety 
precautions that will be most effective, we've seen that you 
can have a safe reopening of society, you know, a gradual one 
and one that meets the needs of people who need additional 
protections.
    That's really the only way that we can have a recovery. No 
matter how much money we pump into the economy, there are real 
services that have to be provided. And, you know, you brought 
up the healthcare of people. My grandfather's turning 90 years 
old today.
    Mr. Scalise. Happy birthday to him.
    Ms. Greszler. But I've seen the impacts. You know, he has 
really been affected by the shutdown and just the decreased 
level activity and not, you know, receiving services that he 
otherwise would have. So, we can't ignore those consequences.
    Mr. Scalise. You know, hopefully--I appreciate that. 
Hopefully we balance all of that. And, again, there's a lot of 
data right now, very good scientific studies that have shown 
that the shut-in has had a very devastating adverse impact on 
so many millions of Americans and, again, loss of life there, a 
loss of life with COVID that we're focusing on.
    Again, we've seen over 40 percent of all the American 
deaths from COVID-19 are seniors in nursing homes, which is 0.6 
percent of our population. That obviously is something we want 
to continue to get the facts on, and we don't have all the data 
we need. We need to keep pressing to get the facts there 
because that was such a large population.
    Obviously, we talked about the disparate impact on minority 
communities and people with underlying conditions like diabetes 
or hypertension or heart disease, and so those are all things 
that we can hopefully learn from and help prevent in the 
future.
    But opening the economy is a big part of this. And I know 
we're seeing jobs numbers, we're seeing real numbers, we're 
hearing about projections. And I know some people want to see 
projections for the next 10 years, but as we saw just last 
week, the experts are usually way off right now in these 
volatile times.
    The experts said we were going to lose 7.5 million jobs. We 
ended up gaining 2.5 million jobs. So, you know, getting 
projections from experts for what might happen years from now 
really doesn't tell us what's going on today and, in fact, 
usually is very different and wrong from what's happening. And 
that jobs report in May shows that.
    Of course, we've seen 11 weeks in a row of declining 
jobless claims, which the jobless claim numbers are still high. 
And I agree with the Chairman, we want to keep bringing that 
number down. But the fact that it has been going down 11 weeks 
in a row shows you that as more economies are opening up, that 
really is paying off for those underprivileged people, the 
people that are impacted the most disparately from 
unemployment.
    So, again, Ms. Greszler, in terms of what we've seen with 
reopening and what we see with unemployment, do you think that 
we need to keep pushing for more safe reopening to address the 
disparity on which communities are hit the hardest with 
unemployment?
    Ms. Greszler. Absolutely. I mean, the only way that we can 
have a cure to this is to actually have people be going back to 
work as soon as it is safe for them to do so and to have actual 
things being produced and to go out there and reopen society. 
And if we continue these unemployment supports, there is a real 
disincentive in there.
    I've talked to dozens of business owners across the U.S. 
who want to reopen and they want to start providing services to 
their community, and they have workers who are just reticent to 
come back or who have not returned their calls. There were even 
workers who walked out of the job after Congress passed this 
act.
    So, while I know that the majority of people who, you know, 
are unemployed and want a job and they will take the job that's 
available to them, there are nevertheless a number of people 
out there who are using, you know, this additional benefit 
there to their financial gain. But in the end, it's not only 
going to negatively impact them but our economy as well.
    Mr. Scalise. Thanks. Hopefully we can----
    Mr. Clyburn. Thank you, Mr. Scalise.
    Mr. Scalise. Mr. Chairman, I yield back.
    Mr. Clyburn. Thank you. Let me remind all members that 
under the rules, we must keep our videos on. We must be able to 
see you. The rules are very clear on that, so please keep your 
videos on.
    With that, I'd like to yield five minutes to Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I too would like to send condolences to Mr. Sensenbrenner 
for his wife's passing, but also Mr. Andy Barr, who serves on 
my committee, lost his wife, only 39 years old, with two 
children. And, of course, Ilhan Omar, who lost her father. Our 
prayers and condolences go out to them.
    I am so pleased about this discussion today because there 
are some issues that we must confront. And I want to address my 
questions to both Michele Evermore and Jason Furman. This 
business about getting rid of the $600 in addition to the 
unemployment that a worker would receive must be addressed.
    I hear on this committee right now that Ms. Greszler is 
talking about we must not continue that $600 supplement because 
somehow this is a grave disincentive to work. I don't believe 
that. I believe that we have workers who really love their 
jobs, want to be back to work. I have many of them who like to 
serve as role models to their children, getting up going to 
work every day.
    I believe that some were on the track for upward mobility, 
and they wanted to continue their work so that they could have 
more opportunities in their jobs. I also believe that, yes, 
some of these businesses are going to close down, and that $600 
that they're receiving is going to be the difference between 
whether or not they're going to be able to pay their rent and 
put food on the table.
    So, this suspicion--because certainly there's no evidence 
that people don't want to go back to work because of $600. But 
this lack of confidence in our workers that's demonstrated by 
those who are adamant against us having $600 added to the 
unemployment is baffling to me, and I have more confidence in 
Americans than that.
    We know and we have heard over and over again about the 
disproportionate number of Blacks who are suffering in this 
pandemic, the loss of jobs for Blacks and people of color, and 
many of these people are on unemployment and they're receiving 
the extra $600, and it is making the difference between whether 
or not they can simply feed their children, pay their rent, and 
basically have at least a semblance of a decent quality of 
life.
    So, I'd like to ask Ms. Michele Evermore and then Mr. 
Furman to comment on this lack of confidence we are hearing and 
this business about we must not have an extra $600 supplement 
to the unemployed. Ms. Evermore first.
    Ms. Evermore. Thank you so much for the question, 
Congresswoman Waters. Yes. So, first of all, I would point out 
that a lot of employers aren't fully opening up. They're only 
opening up part time. And in that case, work sharing is a 
perfect way to get the workers back to work part time and 
spread the income loss across workers and then they can get 
their unemployment insurance check plus the extra $600.
    In terms of the disincentive piece, as I mentioned in my 
testimony, people are really looking for stability right now. 
People know that unemployment is going to extend for quite a 
while, and attachment to work is important to them. But also, 
you know, that $600 doesn't go very far toward buying a COBRA 
benefit, and people want health insurance during a pandemic, 
and that's something we also shouldn't overlook.
    Ms. Waters. Well, thank you.
    Would you share your thoughts about that, Mr. Furman?
    Mr. Furman. Yes. The main constraint on jobs in our economy 
now is that businesses aren't hiring, not that there are people 
who don't want to work. There are many millions of people who 
aren't covered even by unemployment insurance who are available 
to work. If an employer calls back a worker from temporary 
layoff, they have to go back. They cannot continue to receive 
their unemployment benefits.
    Finally, unemployment benefits do have actually some 
benefits in terms of the labor force. They keep people attached 
to the labor force. They can prevent somebody from going on 
disability insurance, which is--often means you're lost to the 
work force. And for those workers that aren't going back to 
their old jobs, it gives them a little bit of extra time so 
that rather than taking the first job that comes along, they 
can take the one that's best for them, which will also probably 
be best for the economy as a whole.
    Ms. Waters. $600 is not an awful lot of money. Do you 
believe that this $600 is making a difference in the lives of 
people, many of them who were on very low-paying jobs, entry-
level jobs? Do you think it's making a difference?
    Mr. Clyburn. Thank you very much, Ms. Waters. Your time is 
expired.
    Ms. Waters. Thank you.
    Mr. Clyburn. The Chair now recognizes Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Greszler, I don't have lack of confidence in the 
American worker. I have lack of confidence in Democrat 
Governors in these states who did things like Governor Cuomo 
did, sending COVID-infected people back to nursing homes, and, 
more importantly--or as importantly, a lack of confidence in 
Democrat Governors who kept their states--who are keeping their 
states locked down.
    So, Ms. Greszler, the ranking member, Mr. Scalise, talked 
about this earlier, why, in fact, did we lock down?
    Mr. Clyburn. Ms. Greszler?
    Ms. Greszler. I'm sorry. I'm having connection issues here. 
Could you repeat the question?
    Mr. Jordan. Ms. Greszler, Ranking Member Scalise earlier 
talked about the reason we locked down the economy was to make 
sure our hospitals weren't overrun. It seems to me we met 
that--you know, we accomplished that goal, because, in fact, 
what we did is our hospitals--if anything, we bankrupted some 
of our hospitals.
    Ms. Greszler. I'm really sorry. I haven't been able to hear 
the question.
    Mr. Jordan. Mr. Chairman, could I go later? Because my 
questions are for Ms. Greszler. If I could go later.
    Mr. Clyburn. OK. Very good. We'll come back to you, Mr. 
Jordan.
    Mr. Jordan. Thank you.
    Mr. Clyburn. Mrs. Maloney, you are now recognized.
    Mrs. Maloney, would you unmute yourself? Mrs. Maloney? We 
can't hear you.
    Chairwoman Maloney. Can you hear me now?
    Mr. Clyburn. I hear you now.
    Chairwoman Maloney. OK. Thank you, Mr. Chairman.
    I, first of all, want to be associated with the comments of 
my colleagues with my condolences to our colleagues who have 
lost loved ones, including a member of our committee today, 
Mrs. Waters, and to welcome all of our distinguished panelists, 
particularly Mr. Furman, who is a constituent in the district I 
am honored to represent.
    So, first of all, I'd like to say that in New York, the 
state that I represent, we have seen some of the highest rates 
of infections and deaths from this terrible crisis. And thanks 
to the sacrifices of New Yorkers and the bravery of our 
frontline essential heroes, we have finally bent our curve, and 
we are cautiously seeking to return to some increased activity.
    But I'm very concerned for other communities all over the 
country that are witnessing dangerous increases in infections 
and hospitalizations. We are still in the first wave, and 
clearly this virus is not contained.
    Professor Furman, the steps we take over the next few weeks 
and months could have a direct and significant effect on our 
economy. If coronavirus continues to resurge, like it is doing 
now across the country, what effect will that have on the 
short-and long-term economic consequences for communities, 
states, and the Nation?
    Mr. Furman. The damage to the economy has primarily been 
done by the virus, not by the lockdown orders to contain the 
virus. You saw people pulling back their consumption even 
before the lockdown orders went into effect, and they didn't 
raise it even when it was lifted. That means that taking more 
vigorous steps now to contain the virus is like an investment, 
an investment that would pay off not just in lives saved, but a 
stronger economy down the line.
    Chairwoman Maloney. Thank you.
    When people who lose their incomes, they lose the ability 
to afford necessities like housing, food, and healthcare. 
That's why we work so hard to ensure that the CARES Act 
included additional benefits for unemployed workers. And here 
in the House, we also passed an extension of those benefits in 
the HEROES Act. But the Senate has failed to act today.
    Professor Spriggs, what does current economic data tell us 
about the impact of the enhanced unemployment benefits in the 
CARES Act for people?
    Mr. Spriggs. Thank you, Congresswoman. The CARES Act has 
been a savior to the economy. The boost to personal income 
saved us in the month of April and launched us into the job 
gains we saw in May. But it's important to remember, with that 
extension, the large share of workers who are now getting 
Pandemic Unemployment Assistance because they would not 
otherwise have qualified, and disproportionately those are the 
low-wage workers in the industries directly affected, like the 
leisure and hospitality industry.
    Unfortunately, as Ms. Evermore stated, states have been 
slow in building up to that, and, disproportionately, African 
Americans have not had access so far to the PUA and have been 
in states where states have been very aggressive at stamping 
out what they perceive to be people filing falsely, making it 
more difficult to apply.
    So, currently, African Americans, as was the case in the 
Great Recession, are far less likely to be receiving 
unemployment benefits, even though they would otherwise 
qualify. This is one of the great tragedies of letting states 
have control of the policies. Again, as Ms. Evermore has mapped 
out for you, you can see that those states that have made it 
the hardest are the states where Black workers live 
disproportionately.
    These benefits are necessary for the economy, and they are 
saving the economy because, after all, if people don't pay 
rents, that's debt building up in banks because somebody else 
isn't getting paid who isn't getting paid. We don't want to 
turn this into a financial crisis as well as to a real economy 
crisis.
    Chairwoman Maloney. Now, in New York, while being hit hard 
by the coronavirus, unemployment rates in April went up to more 
than 14 percent. At the May jobs report from the Bureau of 
Labor Statistics show that we still have dire levels of 
unemployment throughout the country.
    Yesterday, Fed Chairman Powell warned our Financial 
Services Committee about the dangers of cutting off assistance 
to the unemployed at this point in the crisis. He said, and I 
quote: People are right now, they're getting enhanced 
unemployment insurance. Perhaps many have gotten support checks 
as part of the CARES Act. But over time, they don't have a 
secure income. And to the extent they lose those benefits 
they're getting, then they are going to come under financial 
pressure right away, end quote.
    Ms. Evermore, what will happen----
    Mr. Clyburn. Mrs. Maloney, your time has expired.
    Chairwoman Maloney. All right. I'll submit the question in 
writing to her.
    Mr. Clyburn. Thank you. Thank you.
    Ms. Greszler, can you hear us? I can see you. Can you hear 
us? Well, we can't hear you.
    Ms. Greszler. Can you hear me now?
    Mr. Clyburn. I can hear you now.
    Ms. Greszler. OK. Great. Thank you.
    Mr. Clyburn. OK. Let's hope that we have got your--so I go 
back to Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Greszler, Mr. Furman just said that the virus itself is 
the reason for the economic downturn, not the lockdown, not the 
idea that we've locked down our economy. Do you agree with that 
statement?
    Ms. Greszler. No. I think that was the problem at the 
beginning, but now that things have been reopening, that's no 
longer the case.
    Mr. Jordan. Yes. When you don't let people go to work, that 
has a negative economic impact, right?
    Ms. Greszler. Yes.
    Mr. Jordan. And when you let them go to work, you have got 
a stronger economy. Shazam. Figure that one out. That means--
that makes no sense to me that the lockdown has no impact on 
the economy? Well, how about states who opened up earlier, are 
they seeing higher economic growth in states that are still 
largely locked down?
    Ms. Greszler. We've seen a bigger decrease in the 
unemployment rate in those states.
    Mr. Jordan. Of course. So, let me go back to something you 
said in your opening statement. Was our economy humming along? 
Was it doing well prior to the coronavirus?
    Ms. Greszler. It was. And that's what's different here. We 
actually had seen the strongest gains among lowest income 
workers prior to this.
    Mr. Jordan. Wages were up, taxes have been cut, regulations 
reduced, unemployment at its lowest in 50 years, unemployment 
for African Americans, Hispanic Americans, stock market up, the 
best economy we've seen. I have had businessowners in our 
district say best economy they've seen in their entire 30, 35 
years in business, best economy ever. And yet we're telling 
people--now we're saying, oh, oh, the idea that we won't let 
people go back to work when we had that great economy, somehow 
that's not impacting the numbers. That makes no sense to me.
    So, is it time to let people go back to work?
    Ms. Greszler. Absolutely. As I said, that's the only way 
that we're going to grow the economy is if people are actually 
doing work.
    Mr. Jordan. Yes. Time to reopen our economy.
    And, again, remember, we shut down the economy because we 
said we didn't want to overwhelm our hospitals. We certainly 
didn't overwhelm our hospitals. This is where we started before 
we had technical difficulty. We didn't want to overwhelm the 
hospitals. We didn't do that. In fact, some hospitals are in 
financial trouble because they couldn't do elective surgery, 
couldn't do the scanning, and all the other things that they 
normally do. It was--in fact, we sent--the President sent a 
ship to New York Harbor to New York, and the ship's back in 
Virginia now. Been back for six weeks because we definitely met 
that goal.
    So, it is time to reopen our economy. Let this thing that 
was happening so strongly prior to the coronavirus, let the 
great American comeback happen. Do you agree?
    Ms. Greszler. I do. And we have to recognize that this is 
all the more reason we need flexibility. We need income 
opportunities to reopen. We can't be driving up the cost of 
employing people. We can't be closing doors to gig work and to 
people being their own bosses. There's going to be kind of a 
new shift here coming out. People need more flexibility. We 
shouldn't be shutting options that prevent people from having 
that.
    Mr. Jordan. And you don't have any lack of confidence in 
the American worker, as one of my Democrat colleagues--I mean, 
I have the utmost confidence--like I said, I got the utmost 
confidence in the American people and the American worker. I 
have very little conference--confidence, excuse me, in some of 
these Democrat Governors in these states that continue to keep 
things locked down, particularly after they've made the 
decision to send people with the coronavirus back into nursing 
homes, as Governor Cuomo did.
    It's not about a lack of confidence in the American worker. 
We've got the utmost confidence in them. In fact, it's the 
American worker, the American people who gave us that great 
economy we had prior to the coronavirus outbreak.
    Ms. Greszler. Absolutely.
    Mr. Jordan. Yes. So, we got to let them--we got to let them 
get back to work as quickly as we can.
    Last thing, talk about this unemployment issue that has 
been discussed already in our hearing today. The concerns that 
some are raising. Look, people who were entitled to 
unemployment wanted to have them. But better than unemployment 
is back to work. It's almost like we got this at, oh, no, let's 
keep people--I would rather people be back to work. It's better 
for the individual. It's better for the family. It's better for 
the American economy. It's just better. But somehow it seems 
that that is a no, no, no, let's keep things locked down and 
let's keep people--that makes no sense to me. Let's let people 
go back to work.
    Ms. Greszler. Absolutely. Let's let them, you know, go back 
in ways and consider, you know, certain targeted support. So, 
instead of just throwing $600 to anybody, you know, if you have 
that partial match, and you talk about these unemployment 
programs that will provide for the short time comp or the work 
sharing that Ms. Evermore was talking about, that's a far 
better solution with more targeted provisions than just giving 
$600 to everybody who remains unemployed.
    Mr. Jordan. Thank you, Ms. Greszler, I appreciate your 
time. I appreciate your input.
    Mr. Chairman, I will yield back.
    Mr. Clyburn. I thank the gentleman for yielding back.
    As I go to Mr. Luetkemeyer, let me just remind my friend 
Mr. Jordan that 21 states have seen a tremendous increase in 
infections over the last week, one of them being my state. 
Arizona, Florida, Oklahoma, Texas, all have got one thing in 
common--or two things in common: They set records last week, 
and all of them had Republican Governors.
    Mr. Jordan. Let me ask you this. Are the coronavirus cases, 
is it worse in states that have opened up versus states that 
have locked down? And, frankly, but for a few isolated 
incidents, it's not. So, there is no difference in overall 
numbers in states that opened up early. The difference is the 
states that opened up early, they have stronger economic 
growth. There has been, but for a few isolated places, it has 
been no difference in the outbreak of people contracting the 
coronavirus. But that's my point. Let's open up.
    Mr. Clyburn. I beg to differ. Florida, Texas opened up 
early, and they set records and have Republican Governors.
    Mr. Jordan.
    [Inaudible.]
    Mr. Clyburn. With that, I will yield to Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Mr. Chairman, and ranking 
member----
    Ms. Velazquez. Excuse me, Mr. Chairman. I think that I'm 
next.
    Mr. Clyburn. I'm sorry?
    Ms. Velazquez. Since Mr. Jordan was the one asking 
questions, isn't it my turn?
    Mr. Clyburn. No. We come to you next. We had to go back to 
Mr. Jordan because of a malfunction.
    Ms. Velazquez, you are after Mr. Luetkemeyer, according to 
what I have here. Mr. Luetkemeyer now, then we come to you, Ms. 
Velazquez.
    Mr. Luetkemeyer. OK. Thank you, Mr. Chairman. And thank 
you, Ranking Member Scalise and all of those who are briefing 
the subcommittee today. We appreciate your attendance and your 
testimony.
    In many parts of the country, including much of Missouri 
where I'm from, the effects of the economic downturn caused by 
blanket shutdowns have been just as, if not more, damaging to 
human health and safety than the virus itself.
    Just to give you perspective, I speak regularly to a 
funeral director based in my district. During this pandemic, he 
has seen more deaths related to suicide than from COVID-19.
    Scientists have repeatedly found that unemployment leads 
directly to things like substance abuse, depression, child 
abuse, domestic abuse, violent crime, and suicide. A study 
performed by the University of Missouri found that 1 in 5 
suicides are related to unemployment. That same study showed, 
in 2009, the suicide rates jumped 12 percent due to the 
economic crash in 2008.
    Additional studies that we have discussed in this 
subcommittee have found that for every $17 million Americans 
lose in collective income, we lose in American life. That 
translates to 65,000 American lives lost each month due to the 
economic shutdown. Roughly, that's 50 percent more lives lost 
than due to the coronavirus.
    I don't want to minimize the devastating impact the virus 
has had on many American families. It is important that we look 
at--but I believe it's important that we look at the whole 
healthcare picture on how many Americans have also been 
impacted by the forced shutdown of businesses across the 
country. With the curve flattening and all 50 states open in 
some capacity, it's time we focus on getting our economy back 
on track, and we are fortunately headed in that right 
direction.
    Now, I would like to address a question to Ms. Greszler. 
Now, one of the things that everybody is talking about through 
this situation is we need to do--make the decisions based on 
data and based on science. I just gave you some statistics a 
minute ago with regards to data--65,000 deaths per month on the 
other side. The rest of our healthcare concerns with the rest 
of our society.
    The CDC and Dr. Fauci both now believe we need to be 
opening up. The CDC indicates that our death rate on the 
coronavirus is less than four-tenths of one percent, which is 
right in the area of the common flu that we get all the time.
    Last week, in our hearing, one of the gentlemen that 
testified indicated that children now are at greater risk with 
the flu than they are with COVID, and the lockdown costs our 
economy over $25 billion per day.
    You know, one of the things also that came out that I read 
recently here in one of the journals is that University of 
Pittsburgh has made a cumulative study that said that the virus 
is now mutating to a less virulent strain. There are two 
separate doctors in Italy that now say that they recognize that 
the strain is much less virulent than it was. And, anecdotally, 
in the same article, there was a statement that New York also 
sees this happening as well.
    We now know the disease is very targeted. You know, we see 
this for seniors and high-risk individuals. So, we have lots 
and lots of data. I can continue on. I've got reams of it in 
front of me. But we have the data. We have the scientific 
evidence and the scientists who tell us now how we can do to 
this responsibly.
    Why do you think it is--there's a bunch of states that are 
very, very slow at reopening, when the data shows that we need 
to be reopened for the healthcare of the rest of our society, 
and that we can do it responsibly. Why do you think those 
states are not doing that?
    Ms. Greszler. Yes. I think that there is a lot of fear 
about what the consequences will be, but those aren't 
acknowledging the non-COVID health-related consequences, things 
like talking about children not having great access to school. 
Your saving lives and livelihoods go hand in hand, as you 
pointed out here. And as we look forward, there's absolutely no 
reason why childcare centers and schools should not be 
reopening when we know now that the risks to children are 
actually less than the seasonal flu.
    There are ways to provide, you know, a more data-driven and 
surgical approach to reopening things than to just keep these 
shutdowns in place longer term, as we really are taking away 
people's livelihoods. Because the longer that you have a 
business closed, the more likely it is they're never going to 
be able to reopen their doors.
    Mr. Luetkemeyer. One more quick question and comment here. 
I just got off a conference call earlier before this meeting 
with Larry Kudlow, National Economic director, and he made the 
comment that housing is strong; the last month, travel is up; 
new business apps are up; existing business, 80 percent of them 
now are up and running. And so his comment was, it's important 
that we don't put any sort of policy barriers in place to stop 
this recovery that we're in.
    What do you see as a policy barrier that we should not 
implement, to make sure we continue along the line of a 
recovery?
    Ms. Greszler. Well, I think that there shouldn't be 
barriers that keep businesses unnecessarily closed for longer, 
the schools closed longer. And we absolutely need to put some 
liability protections in place so that these smaller 
businesses, you know, have the assurance that if they reopen 
and they have their workers come back, they're not going to be 
sued for things that are really none of their own doing.
    Mr. Clyburn. Your time has expired. Thank you very much.
    The Chair now recognizes Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    I want to briefly respond to the claim that extending the 
$600 enhanced benefit is stopping people from going back to 
work. The evidence simply doesn't bear that out. Treasury 
Secretary Steve Mnuchin addressed this point in testimony 
before the Senate last week, and he was clear that additional 
$600 benefit has not discouraged people from going back to 
work. He said, and I quote: I think we have seen from the 
recent numbers that didn't have a big impact because people 
want their jobs. The real reason people aren't going back to 
work is because the jobs are not there.
    The Chairman of the Federal Reserve, Chairman Powell, 
testified just yesterday that in hard-hit industries, like 
hospitality and tourism, workers, and I quote, will struggle 
until the pandemic is written into the history books. He 
explained it may be difficult to find jobs in that industry at 
all.
    So, the facts are clear. Americans want to work, and they 
will when given the chance. But until these jobs return, we 
must continue to support the millions of Americans who are out 
of work.
    Ms. Evermore, consumer spending is at the heart of the U.S. 
economy, especially for millions of small businesses. With CBO 
projecting unemployment to reach 50 percent in the coming 
months, what potential harm could come to small businesses and 
our economy if Congress does not extend the unemployment 
insurance?
    Ms. Evermore. Thank you for the question, Representative 
Velazquez. Yes, you're absolutely right, there is tremendous 
local spending effects when it comes to the $600. In the last 
recession, it was estimated that every dollar spent in 
unemployment insurance benefits generated $1.61 in local 
economic activity.
    But to get to your point about people not returning to 
work, first of all, you know, we expected over 20 percent 
unemployment for the May jobs numbers based on initial claims. 
So, looking at an actual drop in unemployment, it looks like a 
lot of people went back to work.
    For example, Alicia, a worker from the District of 
Columbia, she was laid off in March. She needed to be home to 
handle distance learning for her two children. She got the $600 
pandemic benefit. She said, I don't know how I'd do anything 
without it. She had to reach out to her mortgage lender, and 
they allowed her just one month of deferment. She wouldn't have 
been able to keep her mortgage if she hadn't got it. But she 
went back to work as soon as they made telework available for 
her job.
    Ms. Velazquez. Thank you. Thank you.
    Dr. Furman, Chairman Powell testified this week that there 
is a reasonable probability that more will be needed from the 
Congress and the Federal Reserve. He stated that for those most 
impacted by the economy downturn, like Blacks, Latinos, and 
households making less than $40,000, that fiscal stimulus is 
more beneficial than any actions that the Federal Reserve can 
take.
    Do you agree with that statement and, if so, why?
    Mr. Furman. Yes, I very much agree with Chairman Powell in 
that statement. The Federal Reserve, I think, has done a very 
good job, but its tools are really limited, especially because 
interest rates are stuck at zero and they couldn't lower them 
very much. You can very directly get money to the households 
who are most in need, who are facing the greatest challenges, 
through unemployment insurance, through SNAP, through stimulus 
checks. And that has happened to be the same households that 
are most likely to spend the money. It has what economists 
would call the highest marginal propensity to consume, and 
that's the largest positive impact on the economy overall.
    So, it's really--the Federal Reserve has mostly done its 
job. It's Congress that needs to do its job. And, of course, 
the House did its job by passing the HEROES Act.
    Ms. Velazquez. Thank you.
    Ms. Evermore, a recent report noted that Black American 
businessowners plummeted from 1.1 million in February to 
640,000. And that is why I as Chair of the Small Business 
Committee continue to call for funds to be set aside in the 
Paycheck Protection Program.
    Can you talk about the need to prioritize minority business 
assistance and other policies we should consider to help them?
    Ms. Evermore. Yes. I think, actually, Dr. Spriggs would be 
the most well-equipped to answer this. But, you know, building 
on a--considering decades of systemic and structural racism, 
targeting funds to the people who've most been left out means 
that you are going to build a policy that works best for 
everyone.
    Ms. Velazquez. Thank you. My time is up.
    Mr. Clyburn. Thank you very much.
    The Chair now recognizes, Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    I would also like to extend to my colleagues' sympathy and 
prayers toward the great losses that they have suffered just in 
the last couple of months, including my colleague Andy Barr as 
well.
    The CARES Act provided $600 per week in temporary 
supplemental unemployment benefits to support public health by 
allowing businesses and workers to get through closures, stay-
at-home orders, and to flatten the curve. This was a necessary 
step back in March. But if we want a V-shaped recovery as 
states and cities safely reopen, we need to take a different 
tact on this benefit so that it doesn't inadvertently 
disincentivize people from returning to work.
    So, for instance, in my home state of Indiana, workers 
receiving the $600 Federal supplement will be getting about 
three times as much as they otherwise would on unemployment. 
So, factor in the comparatively low cost of living in my 
district and, in many cases, a worker would make more 
unemployment than they would if they return to work.
    In fact, the University of Chicago estimates that over two-
thirds of unemployment insurance recipients nationwide are in 
this situation, and over 20 percent are receiving double their 
salary.
    I want to be clear; I have no issue with any worker who 
took this benefit. Congress made it available at a time when 
much of the economy was going to be shut down for an 
undetermined amount of time. That additional benefit did help 
workers pay rent, put food on a table, and have peace of mind 
as they found themselves unemployed or furloughed through no 
fault of their own. But now businesses are reopening and 
rehiring and shouldn't have to compete with a temporary 
government benefit.
    That's why Ways and Means Ranking Member Brady and myself 
have supported looking at a back-to-work bonus proposal that 
would make work pay by allowing workers to keep up to 2 weeks' 
worth of that additional benefit after accepting a job, 
essentially a $1,200 sign-on bonus. We also want to make sure 
that states provide clear notice to unemployment claimants 
about work, to work obligations, and good cause exceptions.
    I also think there's a better policy than the Democrats' 
partisan bill, the HEROES Act, which would extend the $600 work 
incentive through January 2021. The nonpartisan CBO said that 
doing this would weaken incentives to work, decrease economic 
output, and decrease employment. In short, it would kill our 
economic recovery.
    Another misguided policy in the partisan HEROES Act is 
restoring unlimited deductions for state and local taxes, or 
SALT. The nonpartisan Joint Committee on Taxation has found 
that only one percent of the benefits of this policy would go 
to those making less than $100,000 a year. So, instead, over 
half of the projected benefits would go to those with annual 
incomes of $1 million or more. This does nothing to rebuild our 
economy. In fact, it gives the wealthiest a whole cake while 
the middle class is stuck with the crumbs. Tax experts on the 
left and right agree that restoring an unlimited SALT deduction 
is a bad policy.
    Just a few weeks ago, Mr. Furman, who's with us today, 
reportedly said restoring SALT was a waste of money, that it 
would not help the economic recovery.
    So, as we climb out of this crisis, we need serious 
substantive bipartisan proposals that incentivize people to go 
back to work and to rebuild, and to rebuild our economy and 
their lives, not bloated partisan bills that incentivize--
disincentivize work and provide rich things as giveaways.
    Ms. Greszler, would we be more or less likely to see a V-
shaped recovery if we extend the $600 a week unemployment 
benefit for six more months and restore the SALT deduction as 
the Democratic HEROES Act does?
    Ms. Greszler. No. I think the CBO report that came out 
evaluating that $600 proposal shows that it will actually hurt 
the economy in the long run. We will see lower output 
employment next year. And all this push with the $600 benefit 
is just keeping with the inertia.
    But we have to recognize that when Congress established 
this benefit, it wasn't because it was the best-designed 
program. It was simply the quickest way to get the money out 
the door, you know, recognizing that we were going to have 
these problems. Now that we see what the problems have been, 
that's all the more reason to let that benefit expire and then 
to more properly target the benefits to people who actually 
need them, and talk about ways that if you have a reduction in 
hours of income, maybe you could have that partial benefit 
that's coming in, so that you go back to work 20 hours a week 
and you still get something from unemployment. But we don't 
want it to be manipulated.
    There are too many cases, you know, Portland, Oregon, has 
what they call furlough Fridays. They're laying their teachers 
off or furloughing them for one day a week so that they can 
collect the $600 benefit, plus a partial unemployment benefit, 
the workers are better off. The taxpayers are better off. It's 
Federal taxpayers who are going to bear the brunt of that.
    Mrs. Walorski. I appreciate it, Mr. Chairman. I yield back.
    Mr. Clyburn. Thank you very much.
    The Chair now recognizes Mr. Foster.
    Mr. Foster. All right. Can people hear me? My internet 
keeps coming and going.
    Mr. Clyburn. Yes.
    Mr. Foster. All right. I'm now operating with my iPhone 
hotspot, so we'll see how that works.
    Mr. Clyburn. OK.
    Mr. Foster. So, one of the things that struck me was the 
way that, one--some people have been using the $600 benefit 
simply to be able to maintain their mortgage payments. And, you 
know, as was mentioned, so far, the residential housing market 
has held up all right. However, many people are very worried 
that if this is withdrawn, that there will be a wave of 
foreclosures and that we'll see the sort of downward spiral 
that we saw in the Great Recession where houses--people 
couldn't make their payments, they were foreclosed upon, the 
house was sold, this caused real estate prices to drop, and 
wiped out a huge fraction of the wealth of really a large 
fraction of Americans. And we may be very close to such a 
tipping point if we decide to pull back that $600 suddenly.
    Now, I was wondering, do the projections that are being 
made actually reflect that risk accurately and include the 
regenerative downward spiral that could result?
    Mr. Spriggs. I would be willing to answer for you.
    Mr. Foster. Please, Mr. Spriggs.
    Mr. Spriggs. Absolutely, Congressman. There is that risk. 
We must remember that household income has to be maintained to 
maintain the rest of the economy. And we know from the Great 
Recession that unemployment benefits were important in 
diverting more foreclosures from happening. In this case, it's 
even more necessary because we don't want to complicate the 
current crises that is rising in the economy. Banks are 
amassing debts that it's not clear will be able to be paid off, 
and they're going to have to eventually write off some of this 
bad debt. We need to keep that level down. So, your concern is 
a very valid one and one that has to be added into the 
calculus.
    Mr. Foster. Yes. And then what I've heard from many 
individuals is that, yes, you can get one month of forbearance 
or maybe two months, but you cannot get six months. So, if this 
is yanked away, I think we're going to be facing a wave of 
foreclosures here, and that could end badly.
    I'd also like to draw attention to the words of the 
Chairman of the Federal Reserve yesterday in our Financial 
Services meeting. He said, quote: It's important to just keep 
in mind that some of the jobs are not coming back soon. And 
they're going to have a hard time finding a job, so I think 
it's better to keep them in their apartment, better to keep 
them paying their bills. And that this is a natural disaster. 
It isn't their fault. I think that we should find ways as a 
country to support these people.
    And, you know, I really agree with that, that, this is, you 
know, it's not going to go away, you know, in a month, but it's 
probably not going to last a year. So, I think we really owe it 
to all of our fellow citizens to make sure that they're able to 
survive that year in reasonable shape.
    But in the long term, there may be big structural changes. 
Many people have learned that working at home is a very 
efficient thing to do, and so they won't be going out to the 
restaurant for lunch, and on and on. There are some estimates 
that as many as 40 percent of the jobs that were lost will not 
come back.
    So, how do we wrestle with that situation, if it takes 
place, because then reopening the economy won't be effective 
for those people?
    Mr. Spriggs. Again, Congressman, you are absolutely on 
point, which is why I think the $600 has to be compared to the 
loss of permanent income that many workers are experiencing, 
and looking at it as a replacement rate only on a weekly basis 
is an incorrect calculation. But we need more. We need to make 
sure that our state and local governments do not lay off more 
workers as they face creating budgets that will have to be 
balanced, realizing the loss in revenue they are currently 
suffering from. And we will lose even more jobs if the HEROES 
Act is not passed to stabilize state and local governments and 
ensure that schools can open so that we can get workers back to 
work.
    The greatest fear isn't workers taking the $600 and not 
returning to work. The greatest fear is workers being unable to 
return to work because we haven't done the things to reopen 
schools.
    Mr. Foster. And when that happens, of course, that will 
depress the wages of everyone competing for those jobs being 
much scarce than it needs to be.
    Chairman, I yield back.
    Mr. Clyburn. Thank you very much, Mr. Foster.
    The Chair now recognizes Dr. Green.
    Mr. Green. Thank you, Chairman Clyburn and Ranking Member 
Scalise. And thank you to our witnesses.
    Ever since the Democrats captured the House, the loudest 
voices in the Democrat Party have done nothing but work to take 
power away from people. Take House Resolution 1, for instance, 
the Democrats' flagship bill, For the People Act, or maybe more 
appropriately, ``for the politicians act.'' This piece of 
legislation would mandate a colossal takeover of state election 
processes to empower big government levels. Or perhaps H.R. 5, 
which removes religious freedoms granted in previous 
legislation in the Constitution. Or what about their desire to 
dictate what vehicle we can drive or ride in in the Green New 
Deal? Now, AOC is out there pushing universal rent control. 
That's right out of Karl Marx.
    Take a more recent bill, House Resolution 965. Through the 
Yellow Fever of 1793, the burning of the Capitol during the War 
of 1812, the Civil War, the Spanish flu of 1918, and 9/11, the 
House has always assembled in person to conduct votes.
    And while the Republican-controlled Senate continues to do 
so, Speaker Pelosi forced through proxy voting without the 
minority's consent, further concentrating her power while 
disregarding the Constitution, over 200 years of historical 
precedent. Concentrated power is tyranny. And despite 
flattening the curve, some Democrats have consistently urged 
for a slower reopening of the American economy.
    What about the waitress, though, the bus driver, the 
construction worker, who are not sure how they're even going to 
make next month's rent or put food on the table? Why should the 
government force them not to work when we've already 
accomplished the goal of flattening the curve? It begs the 
question, why are some leaders in the Democrat Party willing to 
put power over people?
    Let me explain. In an article in Politico titled, and I 
quote, ``The general election scenario that democrats are 
dreading,'' end quote, the reporter quotes Jason Furman, Dr. 
Furman who's here today, and I quote, ``We're about to see the 
best economic data we've seen in the history of this country,'' 
end quote.
    The article mentions that Dr. Furman's comments regarding a 
strong economic recovery has caused some Washington Democrats, 
especially Dr. Furman's fellow Obama alumni, to panic. Quote, 
``This is my big worry,'' said former Obama White House 
official. Asked about the level of concern among top party 
officials, he said, ``It's high, high, high, high,'' end quote.
    Senior political operatives of the Democrat Party are 
dreading a massive economic recovery? Is it possible Democrats 
would rather the American economy not bounce back up so quickly 
so that they can see President Trump defeated? I hope everyone 
realizes what this article is saying.
    Top Washington Democrats, some on Vice President Biden's 
campaign team, are lamenting a rapid economic recovery. They 
want unemployment to remain sky high: They want 401(k)'s of 
Americans to tank? They should be celebrating people getting 
their jobs back. These Democrats, not all, these are clearly 
more concerned about power than they are about people. They'd 
rather defeat President Trump than help their fellow Americans.
    As a physician, I understand how the shutdown is severely 
impacting the health and well-being of Americans. Take our 
seniors, it's common knowledge in the medical community that 
social isolation and loneliness heightens mortality. According 
to one study conducted by researchers at Brigham Young 
University, loneliness increased the odds of mortality by 26 
percent. It should be considered a risk factor, like obesity 
and high blood pressure.
    Or take suicides. According to research from Well Being 
Trust, the coronavirus pandemic and related shutdowns will 
probably cause 75,000 additional deaths from suicide, drug 
overdose, and alcohol abuse. A poll by the Kaiser Foundation 
found that 45 percent of U.S. adults reported their mental 
health as already negatively affected. Additionally, diagnostic 
panels and cancer screenings plunged by as much as 68 percent, 
and even more in some coronavirus hotspots.
    As a doctor and a cancer survivor myself, I know from both 
sides of the stethoscope that these screenings are crucial in 
diagnosing cancer before it spreads. There's more than an 
election at stake here. The lives of our fellow Americans are 
at stake.
    I urge Speaker Pelosi and the entire Democrat Party to join 
us, encourage these states to speed up the opening of this 
economy. That's how we save lives, save jobs, and save 
Americans.
    Thank you, and I yield back.
    Mr. Clyburn. Your five minutes have expired.
    The Chair now recognizes Mr. Raskin.
    Unmute yourself. Unmute yourself.
    Mr. Raskin?
    Mr. Raskin. Yes. You got me?
    Mr. Clyburn. Got you now.
    Mr. Raskin. All right. Mr. Chairman, thank you.
    And I also want to add my voice in sympathy and for 
condolences for our colleagues Sensenbrenner and Barr and Ilhan 
Omar for the losses in their family. And I also want to express 
my condolences to the families of 117,832 Americans that we've 
lost in the last four months of this nightmare.
    I noticed that my colleagues and friends across the aisle 
never seem to mention the number of people that we've lost. And 
they're acting as if somehow this crisis is going away. But, 
you know, Florida and Arizona and California reported record 
highs today in number of cases. The hospitalization rate is up 
in Tennessee by 30 percent. Record rates going on in Alabama. 
Nothing can get away from blaming Governor Cuomo for what's 
taking place all across the Southern and Western parts of the 
United States.
    Mr. Chairman, you know, I wish I could go right to 
unemployment, but there's too much disinformation and 
propaganda in there, and I've got to address some of these 
things.
    The ranking member started off by going back to the tried 
and true China excuse, so I decided to do a little research on 
this to see where it's coming from. Turns out there's a whole 
article about it in Politico. I'm going to ask for unanimous 
consent at the end of the meeting to introduce it, called, GOP 
memo urges anti-China assault over coronavirus. It's all about 
how in order to deflect and divert people from President 
Trump's miserable and legal failure to develop a public health 
strategy for testing and contact tracing and public health 
containment of the disease, what needs to be done is to blame 
China over it. It's a 57-page memo that goes into things like 
what to do when people suggest that this is a racist strategy 
and so on.
    One thing that's not addressed in the memo is the real 
glaring fault of this, which is that President Trump in 
January, in February, in March and in April, on 37 different 
occasions praised China and President Xi and his response to 
the pandemic and said he was working very closely with them. I 
don't have time to read all of it, but I'm going to introduce 
this for the record too. It's called, the many times Trump has 
praised China's handling of the coronavirus pandemic. And it's 
a collection of all of the President's statements about it. 
I'll read just a couple, because every time that our Republican 
colleagues go back to blaming China, I'm just going to continue 
reading the President's statement.
    So, I will start at the beginning on January 22 when he's 
asked, do you trust that we're going to know everything we need 
to know from China? He says, yes, I do. I do. I have a great 
relationship with President Xi, and we just signed probably the 
biggest deal ever made.
    Two days later, on January 24, he says, China has been 
working very, very hard at containing the virus. The United 
States greatly appreciates their efforts and their 
transparency. January 27, We are in very close communication 
with China concerning the virus. Very few cases reported in the 
USA. And on and on and on.
    So, either the greatest deal maker of all time, the master 
of the art of the deal got suckered by the Chinese Communist 
Party, or maybe he was in cahoots with them. I didn't think 
that was possible until I picked up today's New York Times and 
I read about the President's former National Security Advisor 
John Bolton, who says that President Trump actually approached 
President Xi about helping him win his reelection, saying that, 
If you buy crops from the United States, you're going to help 
me in the farm states, you're going to help me in agriculture 
states that have been hit very hard.
    Well, that's the reality of the situation. If you guys want 
to keep talking about China, I would love to do it next time 
you do report on China. Please get into the President's 
absolute cooperation with the Chinese government and defense of 
Chinese government.
    Now, it's also being said that somehow the cure to the 
pandemic is to get everybody back to work. But we don't have to 
choose between the economy and public health. On the contrary, 
the best way to get the economy going again is to address the 
public health crisis, which they now completely ignore. And 
it's not only the best way to do it, it's the only way to do 
it.
    Mr. Furman, do you want to address the comments that were 
made about you and your role in trying to address this pandemic 
which makes America the leader in death count worldwide and the 
leader in case count worldwide now?
    Mr. Furman. Yes. The United States economy is in a much 
worse place for the second half of this year because of the 
lack of success in containing the virus. Even with that, I do 
expect you'll see months like the month of May with very large 
numbers. I also expect, even with that, you will be in a very, 
very deep hole. And, you know, if major legislation is passed 
along the lines of the HEROES Act, that would speed the 
economic recovery and mean the economy was in better shape in 
the month of November, something that most Democrats seem more 
than happy to want to do, as judged by their vote for that act.
    Mr. Raskin. Ms. Evermore, what can we do to expedite relief 
right now in states where the unemployment system does not seem 
to be correctly addressing all of the findings that have come 
in from the people?
    Ms. Evermore. Thank you for the question.
    Mr. Clyburn. Mr. Raskin?
    [Inaudible]
    You may go ahead and answer, Ms. Evermore.
    Ms. Evermore. Oh, OK. Thank you.
    The most important thing that I think Congress could do 
right now is just get additional administrative funding out. 
When the original billion dollars was passed in Families First, 
that was the first week in March, nobody had any idea how big 
this crisis was going to be. And a billion dollars only 
represented a 50 percent increase for state agencies who've 
seen a thousandfold increase in new claims. So, I think doing 
that, investing in technological infrastructure immediately 
would go a long way.
    Mr. Raskin. Thank you. I yield back, Mr. Chairman.
    Mr. Clyburn. The Chair now recognizes Mr. Kim.
    Mr. Kim. Thank you, Mr. Chair, for pulling this together.
    I want to start by just addressing that I think I can 
safely say that every single one of us here today wants to see 
our economy strong, wants to see American workers going back to 
work as soon as possible. Any type of false debates about that 
is really just distracting from the issues at hand here. We 
should not be getting into debates here about whether partisan 
politics is getting ahead of our desires for a strong economy. 
That is absolutely not true. Everyone here wants to make sure 
that we have a strong economy and getting people back to work. 
And I think that I can safely say that here today, and I want 
to be very declarative about the importance of making sure 
we're working out for the American people and that they can 
have confidence that their Congress is working for them.
    When it comes to our issues of how do we get people back to 
work as quickly as possible, it comes a question of how do we 
do this safely and responsibly? And if that is where the debate 
is, then let us talk about that and talk about what we can do 
to be able to help the work standards of environment to be able 
to get the public health tools needed to be able to get us to 
that place.
    Ms. Evermore, I wanted to ask you a question here, because 
last week, Secretary of Labor Scalia testified that the Trump 
administration had received, quote, several thousand workplace 
safety complaints during the coronavirus crisis. Yet the 
Department of Labor had issued only one workplace safety 
citation the entire time.
    Now, this is worrisome, because as we're trying to get 
people back to work, we need to make sure we have a safe 
environment for them to be able to get back to. And it feels 
like based on this that the Department has failed to issue any 
enforceable safety standards to protect workers during this 
pandemic.
    I want to ask you if stronger OSHA standards or other steps 
that the government and this administration should be doing 
right now would allow us to be able to reopen in a safer and 
more responsible and sustainable way, and how so?
    Ms. Evermore. Absolutely. OSHA and the Employment and 
Training Administration should be working hand-in-hand first to 
issue workplace standards so employers know how they can open 
up in a safe way. And then also the Employment and Training 
Administration needs to give clear guidance to workers and the 
state agencies what standards apply in terms of refusing unsafe 
work. Because if workers are empowered to take a look at a 
workplace and decide that it's not safe to go back, and going 
back is going to exacerbate the public health crisis, then we 
go a long way toward mitigating some of these public health 
concerns regarding trying to reopen.
    Mr. Kim. That's a huge part of the equation in terms of 
getting people back to work. All of us would like it if we're 
able to have people on unemployment insurance for less time and 
making sure that we can invest in the workplace and make that 
safe and responsible is critical.
    When we look at the steps that we can take to try to help 
people get through this difficult time until they're able to 
get back in safe and responsible way, it's not just about the 
kind of income that they're getting or support they're getting, 
whether through unemployment insurance or something else, but 
it's also about what costs they are still incurring and the 
difficulties that they'll have to be able to then provide for 
their family.
    Ms. Evermore, you raised the question about healthcare, and 
I think that that's a huge one that we all feel particularly 
strong about given this pandemic. And I just recently saw that 
last month, the Economic Policy Institute estimated that over 
16 million workers had likely lost their employer-provided 
health insurance since the start of the pandemic. And that is 
something that I'm deeply concerned about, not only because we 
want people to have health coverage during the pandemic, but 
because we know how much of an out-of-pocket expense that can 
be and could really draw down and negate some of the benefits 
that we're trying to provide through unemployment insurance and 
other means, like the Paycheck Protection Program.
    So, I wanted to ask you here, you know, what steps can 
Congress be taking to reduce the burdens of these high 
healthcare costs for unemployed individuals and their families? 
You've also mentioned, you know, work share, and other efforts 
like that, how does that fit into sort of the puzzle that we 
already have here about the Paycheck Protection Program, 
partial unemployment, and how would work share protection fit 
into that?
    Ms. Evermore. Sure. So, first, in past recessions, Congress 
had subsidized COBRA, which is a thing that I think would be 
worth considering again in order to help with the health 
insurance costs.
    Second, when it comes to work sharing, this is a great 
program. It's criminally underutilized, but what it allows for 
is employers can say, instead of bringing back 30 percent of 
our work force, we're going to bring everybody back at 30 
percent of time. And then they get--still get 70 percent of 
their unemployment insurance benefit, plus the $600. It's win, 
win, win for everybody. And I just--I wish more employers knew 
about this great opportunity.
    Mr. Kim. Well, I appreciate your time. I will end there. 
But all of us, again, just recommitting ourselves and trying to 
help us get through this time and get a strong economy. Thank 
you.
    Mr. Chair, I yield back.
    Mr. Clyburn. Thank you.
    The Chair recognizes Mr. Raskin for unanimous consent.
    Mr. Raskin. Thank you, Mr. Chairman.
    I have three articles, the one--the aforementioned GOP memo 
urges anti-China assault over coronavirus in Politico. I can 
send you that one. In CNN Politics, The many times Trump has 
praised China's handling of the coronavirus pandemic, detailing 
those 37 occasions. And then I also mentioned today's New York 
Times where John Bolton alleges President asked President--
Chinese President Xi to buy crops to help him win reelection, 
titled, Bolton Book Says Trump's Offenses Exceeded Ukraine.
    If I could introduce those for the record.
    Mr. Clyburn. Reserving the right to object, though I do not 
intend to object. In order to minimize interruptions and to be 
fair to everyone, we requested that any exhibits be circulated 
in advance via the Oversight clerk's email circulated in the 
hearing notice. If you have not sent the item yet, we ask that 
you do so now. We want to ensure that we have seen copies of 
all materials before they go into the hearing record. So, I'm 
going to hold off agreeing until after we have ensured that 
we've received and seen the documents.
    I thank the member for the request. The member may be 
assured that his request will be dispensed with before the end 
of the hearing.
    Mr. Raskin. Mr. Chairman, thank you. I was not aware we 
were going to talk about China today. I was prepared to talk 
about unemployment, and that was why I went into my China 
folder. But I appreciate your indulgence. And now we'll have it 
on the record in the event this comes up again.
    Mr. Clyburn. Thank you very much.
    With that, I would like to yield to the ranking member for 
any closing statement he would like to make.
    Mr. Scalise. OK. Thank you again, Mr. Chairman, and for the 
members and witnesses for all of the different information that 
we discussed today. Clearly, getting our economy reopen is 
where we need to be focused, because we've seen that the 
devastating consequences of people staying at home is costing 
lives.
    We're going to continue to learn more about this virus. We 
know that China lied to us, hid information, corrupted the 
World Health Organization to say things like human-to-human 
contact wasn't happening. All of those things are things we're 
going to continue to call on this committee to investigate 
because it's a key part of how we got here. And then we want to 
focus on how we get back to a healthy economy.
    We were in, as many of our members--I know Mr. Jordan 
talked a lot about how strong our economy was before. I would 
hope there are not people rooting against an economic recovery 
for their own political benefit. But we know that we're 
starting to see an uptick in people getting back to work and 
jobless claims dropping. The numbers are still high. We want to 
continue to see that number go down. And the number is going 
down. That's the direction we want it to go.
    In terms of testing, I know everybody's been saying we need 
more testing. And, frankly, President Trump is putting strong 
emphasis in getting more testing. You know, if you just go back 
to March, we were struggling to get a thousand tests a day. 
Today, we are doing 450,000 tests a day. We should all be glad 
that we're increasing testing. Of course, the more tests you 
do, the more positives you're going to find. And so to just 
look at the number of positives doesn't really talk about the 
concern we've always had.
    The reason for the shut-in, as all of our witnesses have 
confirmed, was to make sure our hospitals didn't get overrun. 
And, in fact, Mr. Chairman, they did not get overrun. Not one 
hospital denied anybody a ventilator. You know, we saw the ship 
in New York get returned because they didn't have that overrun 
at their hospitals, even in the states that had the highest 
numbers.
    But we did see, Mr. Chairman, some states handle this worse 
than others. And this isn't a partisan issue. Forty-five 
Governors, Republican and Democrat, followed CMS guidelines in 
properly protecting their nursing home patients who would be 
most vulnerable. Again, 42 percent of all the COVID deaths in 
America only resulted from 0.6 percent of America's population. 
And then as we have found out, thousands of those deaths should 
not have occurred because a few Governors, five Governors, 
chose to go against CMS guidelines.
    I just got this letter, Mr. Chairman, from the Governor of 
New Jersey, just sent it in during this hearing, where he 
denied our request to give data, to be transparent. And he 
said, the minority can't request data for Oversight. It's got 
to come from the majority. So, I would ask the majority to join 
us. I don't know what the Governor of New Jersey is hiding. We 
have asked him for very specific information leading to deaths 
of thousands of his citizens.
    Just like we've asked in those other four states where they 
went against CMS guidelines and said you have to take the 
patients back to the nursing home. Even if you don't have the 
ability to care for them, you, in fact, are prohibited, in New 
Jersey and New York, prohibited from testing them for COVID so 
that you can properly protect the other seniors. And it didn't 
happen, and thousands of people died unnecessarily.
    We absolutely ought to get that information. And so we're 
going to continue to push for that as we try to seek answers to 
continue reopening our economy.
    And I will finish with this. I know Mr. Jordan also talked 
about having full confidence in the American worker, which I 
share. And I have concerns about some of the Governors who went 
against protocols. By large, most Governors, Republican and 
Democrat, did the right thing. Eighty percent of our nursing 
homes didn't have these problems. But some Governors decided to 
ignore those CMS guidelines, and it led to death sentences for 
thousands of Americans. And we ought to get those answers. 
We're going to continue pressing for that.
    And with that, I yield back, Mr. Chairman.
    Mr. Clyburn. Well, I thank the gentleman for his statement.
    I would like to say, first of all, I want to thank the 
panelists for being here today. And I commend all of my 
colleagues for their participation. I would hope, though, that 
if it is true, as you said, my friend, that things are getting 
better, that we are at the turning point, I am failing to 
understand why it is we cannot get the data, why it is that 
they have stopped putting out the data. It would seem to me 
that if things are getting better and we are at the turning 
point, that Mr. Mnuchin and this administration would gladly 
share that data with us. Why is it that they are refusing to 
have--let the American people see the numbers? This has been a 
tradition for as long as any of us have been in government, but 
they're not giving it to us.
    The experts' analysis we have heard today has made three 
things pretty clear. First, we are dealing with a widespread of 
employment of a magnitude that we haven't seen in generations. 
And the pain is not over yet. Tens of millions of American 
families have lost their livelihoods. While some may wishfully 
think we have turned the corner, the experts are clear, this 
job crisis will be with us for many months. And I suspect 
that's pretty clear with the administration as well, and I 
suspect that that's why they're not giving us the data that 
I've asked for as recent as this morning.
    So, we cannot let critical, crucial support for unemployed 
Americans expire next month. It's clear that we need to do 
something for working men and women.
    It's interesting to me, as we said when we were setting up 
this committee, to pattern this committee after the Truman 
Committee of 1941. Harry Truman said in that occasion that he 
found it very interesting that no matter how much money we 
spent, the big corporations, especially those doing business 
with defense contractors, nobody would say a word. But you try 
to get a little bit of money, a little bit of help to some poor 
soul, nearly unemployed, and all hell breaks loose.
    All we can hear now is $600 will be a disincentive for 
people to work. That's an insult. People want to work. The jobs 
are not there. And that's why--they're not there. That's why we 
passed the HEROES Act. And just after we passed that $3 
trillion HEROES Act in the House, without any--well, we did get 
one Republican to vote for it--when we passed it, Chairman 
Powell said at the time, $3 trillion may not be enough.
    And so I would hope that we would set aside all this 
partisan bickering and let's do what we can for the American 
people.
    Now, the second thing to be made clear here is that without 
a comprehensive plan to combat the ongoing public health 
crisis, we will never have a solution to the unemployment 
crisis. I--, I don't blame this spike that's taking place here 
in South Carolina on my Republican Governor. Henry McMaster is 
a good guy. I'm not blaming him for the spike. But I see my 
state in the news every evening now for setting a record. I 
don't blame Texas Governor or Florida's Governor that they're 
setting records in this spike. This may not be a second wave, 
but it is definitely a spike in the first wave. And we need to 
do something about that.
    Reopening without a clear nationwide plan to stop this 
virus will only lead to more infections, more deaths, and more 
economic harm. That's why Houston is now talking about shutting 
down businesses again.
    Sky-high unemployment will continue until the economy can 
be opened in a sustained way that protects the health of all 
Americans.
    I want to see this economy open back up. All of us want to 
see this economy open back up. But I don't want to see people 
dying like flies. I want to see people healthy. So, let's do it 
in a healthy way. And we can do that if we work together, talk 
about what we can do, talk about what we can do to fix the 
nursing home crises that we all talked about here last week. 
There's a lot that we could do together if we just stop the 
partisan bickering.
    We need the administration to finally take the leadership 
role in developing that plan and getting states the testing and 
the protective equipment they need to beat this virus.
    Last, the harms of this unemployment crisis have not been 
evenly distributed. The poorest Americans, Black Americans, and 
other people of color are facing the gravest impacts. We must 
work proactively to address racial and inequality in jobs, 
earnings, wealth, and prosperity. The comprehensive Federal 
response must provide the resources for retraining for workers 
whose jobs are simply not returning, after seeing the report 
that said that 50 percent of the jobs lost during this pandemic 
will not be coming back. The HEROES Act that we have just 
passed in the House would be a good beginning.
    So, let me just say to all of my colleagues, we cannot bury 
our heads in the sand and hope that our economy will 
miraculously recover. It won't. Congress and this 
administration must meet this moment to support Americans in 
need and prevent even more economic destruction.
    And with that, this meeting is adjourned.
    [Whereupon, at 2:11 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
